Department of Homeland Security
   Ofﬁce of Inspector General

                 Coast Guard Has Taken Steps 

             To Strengthen Information Technology 

              Management, but Challenges Remain 





OIG-11-108                                    September 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                        September 7, 2011

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report addresses the effectiveness of United States Coast Guard’s planning, acquisition,
implementation, and use of technology to support its mission. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations

Executive Summary .........................................................................................................................1
 

Background ......................................................................................................................................2
 

Results of Audit ...............................................................................................................................5
 

   Coast Guard IT Planning and Acquisition Processes ..................................................................5
 

   IT Implementation .....................................................................................................................11
 

   IT Use To Support the Coast Guard’s Missions ........................................................................19
 

Recommendations ..........................................................................................................................27
 

Management Comments and OIG Analysis ..................................................................................28
 



Appendices
Appendix A:          Purpose, Scope, and Methodology .........................................................................30
 

Appendix B:          Management Comments to the Draft Report ..........................................................32 

Appendix C:          Major Contributors to this Report ...........................................................................35 

Appendix D:          Report Distribution....................................................................................................5 


Abbreviations
AIS                   Automatic Identification System
C2PC                  Command and Control Personal Computer
C3CEN                 Command, Control, and Communications Engineering Center
C4IT                  Command, Control, Communications, Computers, and Information Technology
CAS                   Core Accounting System
CBP                   Customs and Border Protection
CIO                   Chief Information Officer
DHS                   Department of Homeland Security
FPD                   Financial Procurement Desktop
FY                    fiscal year
IT                    information technology
ITAR                  Information Technology Acquisition Review
ITIL                  Information Technology Infrastructure Library
MISLE                 Marine Information for Safety and Law Enforcement
MD                    Management Directive
MSAM                  Major Systems Acquisition Manual
OCIO                  Office of the Chief Information Officer
OIG                   Office of Inspector General
OSC                   Operations Systems Center
SDLC                  Systems Development Life Cycle
Table of Contents/Abbreviations
SELC                Systems Engineering Life Cycle
TASC                Transformation and Systems Consolidation
TISCOM              Telecommunications & Information Systems Command

List of Figures
Figure 1: Coast Guard Organizational Structure ........................................................................... 3�
 

Figure 2: Coast Guard OCIO Organizational Structure ................................................................. 3�
 

Figure 3: C4IT Service Center Organizational Structure .............................................................. 4�
 

Figure 4: C4IT Strategic Plan Goals .............................................................................................. 6�
 

Figure 5: C4IT Strategic Plan Alignment .................................................................................... 77�
 

Figure 6: IT Acquisition Process and Life Cycle Alignment ........................................................ 9�
 

Figure 7: IT Acquisition Reviews � $2.5 Million Submitted to the DHS CIO 

              (FY 2007 to FY 2010) .................................................................................................. 10�
Figure 8: IT Acquisition Reviews < $2.5 Million Conducted by the Coast Guard CIO
              (FY 2008 to FY 2010) .................................................................................................. 11�
 

Figure 9: IT Personnel Outside of the OCIO ............................................................................... 17�
 

Figure 10: Current Fleet Network Connectivity Installation Status ............................................ 19�
 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                        We audited the United States Coast Guard’s management of
                        information technology. The objective of our audit was to
                        determine the effectiveness of the Coast Guard’s planning,
                        acquisition, implementation, and use of technology to support its
                        mission. The scope and methodology of this audit are discussed
                        further in appendix A.

                        The Coast Guard has made progress establishing effective
                        information technology management practices. Specifically, the
                        Coast Guard has an up-to-date strategic plan for information
                        technology that is in line with federal requirements and
                        departmental guidance. In addition, the Coast Guard has
                        implemented the department’s system life cycle management and
                        acquisition review processes. As a result, the Chief Information
                        Officer is positioned to support the Coast Guard’s mission, and has
                        controls in place to allow for effective acquisition decisions.

                        The Chief Information Officer has also taken steps to centralize
                        and standardize implementation of information technology across
                        the Coast Guard. Achieving a standard information technology
                        environment, however, has been hampered by the Chief
                        Information Officer’s limited authority over some information
                        technology assets and spending. Consequently, the Chief
                        Information Officer cannot fully ensure that the information
                        technology environment is functioning effectively and efficiently.

                        Still, the Coast Guard could improve information technology
                        management in a number of areas. Specifically, Coast Guard
                        systems and infrastructure do not fully meet mission needs. For
                        example, Coast Guard field personnel do not have sufficient
                        network availability, and the aging financial system is unreliable.
                        In addition, command center and partner agency systems are not
                        sufficiently integrated. These limitations have various causes,
                        including technical and cost barriers, aging infrastructure that is
                        difficult to support, and stovepiped system development. As a
                        result, field personnel rely on inefficient work-arounds to
                        accomplish their mission.



 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                               Page 1
Background
                               The United States Coast Guard, one of the Nation’s five armed
                               services, is a maritime military service within the Department of
                               Homeland Security (DHS). The Coast Guard has 11 missions:
                               Ports, Waterways, and Coastal Security; Drug Interdiction; Aids to
                               Navigation; Search and Rescue; Living Marine Resources; Marine
                               Safety; Defense Readiness; Migrant Interdiction; Marine
                               Environmental Protection; Ice Operations; and Other Law
                               Enforcement.1 In fiscal year (FY) 2010, the Coast Guard’s budget
                               was $10.1 billion, approximately 18% of DHS’ overall requested
                               budget of $55.1 billion.

                               The Coast Guard has 50,256 full-time personnel (42,389 military
                               and 7,867 civilian) and 36,946 reservists and auxiliary personnel
                               stationed across the country at Coast Guard headquarters units and
                               operations units. The operations units are organized under the
                               Atlantic and Pacific Area commands, which are composed of nine
                               districts that are further broken down into 35 sectors with
                               supporting stations. Coast Guard assets consist of 250 cutters,
                               1,784 boats, and 198 aircraft.2

                               The Coast Guard headquarters units are organized under the
                               central command of the Commandant and eight Assistant
                               Commandants: Human Resources; Intelligence & Criminal
                               Investigations; Engineering and Logistics; Marine Safety, Security,
                               and Stewardship; Command, Control, Communications,
                               Computers, and Information Technology (C4IT); Capability;
                               Resources; and Acquisition. Figure 1 shows the Coast Guard’s
                               organizational structure.




1
    6 U.S.C. 468(a).

2
    A cutter is any Coast Guard vessel at least 65 feet in length, and a boat is any vessel under 65 feet in length. 


    Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                         Page 2
                       Figure 1: Coast Guard Organizational Structure

                       Under the Coast Guard Chief of Staff, the Assistant Commandant
                       for C4IT, who serves as the Chief Information Officer (CIO),
                       designs, develops, deploys, and maintains information technology
                       (IT) solutions for the entire Coast Guard. The Office of the CIO
                       (OCIO) comprises approximately 110 staff at headquarters,
                       including military and civilian personnel, who work in one of six
                       IT offices: Information Management; Enterprise Application
                       Management; Enterprise Infrastructure Management; Information
                       Assurance & Spectrum Policy; Enterprise Architecture &
                       Governance; and Enterprise System Development Policy. Figure 2
                       shows the Coast Guard OCIO organizational structure.




                       Figure 2: Coast Guard OCIO Organizational Structure

                       In 2009, the CIO established the C4IT Service Center. The C4IT
                       Service Center is responsible for operations and maintenance of IT
                       systems and assets across the Coast Guard. The mission of the
                       Service Center is to provide full life cycle support for Coast Guard
                       IT applications, systems, and infrastructure, enabling Coast Guard
                       personnel to have the information they need to perform their jobs.

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 3
                       The Service Center has an annual budget in excess of $400 million,
                       with 3,100 employees (including military, government, and
                       contractor), located in more than 70 locations within the United
                       States. Figure 3 shows the organizational structure of the Service
                       Center, which is composed of four shared-services offices, a field
                       services division, and three centers of excellence.




                       Figure 3: C4IT Service Center Organizational Structure

                       The four shared-services offices enable delivery of mission
                       capability and service to customers located throughout the Coast
                       Guard. The Field Services Division oversees 11 IT support units
                       and their subordinate detachments located at the Coast Guard’s
                       operations units. The centers of excellence include the Operations
                       Systems Center (OSC), which is responsible for enterprise IT
                       systems; the Command, Control, and Communications Engineering
                       Center (C3CEN), which is responsible for command, control, and
                       navigation systems; and the Telecommunications & Information
                       Systems Command (TISCOM), which is responsible for enterprise
                       IT infrastructure.

                       The Coast Guard relies heavily on technology to meet its safety,
                       security, and stewardship missions. The CIO has program
                       management responsibility for 140 enterprise applications,
                       including law enforcement databases such as Marine Information
                       for Safety and Law Enforcement (MISLE) and search and rescue
                       tools such as the Search and Rescue Optimal Planning System.
                       The Coast Guard also relies on numerous command and control
                       systems, as well as navigation systems, to support tactical units,
                       including systems such as Rescue 21, a direction-finding
                       communication network for search and rescue. In addition, the
                       Coast Guard relies on enterprise infrastructure capabilities, such as
                       messaging systems and network connectivity to deployed cutters.
                       The Coast Guard had an FY 2010 IT budget of approximately
                       $590 million to support its IT environment.

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 4
                           Over the past several years, a number of audit reports have
                           identified key IT challenges within the Coast Guard. In August
                           2006, we reported that the Coast Guard’s efforts to develop its
                           Deepwater Command, Control, Communications, Computers,
                           Intelligence, Surveillance, and Reconnaissance systems could be
                           improved with regard to requirements management, system
                           security, and testing.3 In addition, in July 2009, we reported that
                           the Coast Guard had made progress in developing its enterprise
                           architecture; however, the enterprise architecture had not been
                           fully integrated across the organization.4

Results of Audit
          Coast Guard IT Planning and Acquisition Processes
                   The Coast Guard has implemented IT planning and acquisition processes.
                   Specifically, the Coast Guard CIO has an up-to-date strategic plan that is
                   in line with federal requirements and departmental guidance. In addition,
                   the Coast Guard has implemented the DHS life cycle process for major IT
                   acquisitions, as well as an IT acquisition review process. As a result, the
                   CIO will be strongly positioned to provide effective IT support to meet
                   mission requirements, has controls in place to allow for effective
                   acquisition decisions, and has improved visibility of IT acquisitions
                   throughout the Coast Guard.

                           IT Planning

                           The Government Performance and Results Act of 1993, as
                           amended, holds federal agencies responsible for strategic planning
                           to ensure efficient and effective operations and use of resources to
                           achieve mission results.5 Additionally, Office of Management &
                           Budget Circular A-130, as revised, instructs agency CIOs to create
                           a strategic plan that demonstrates how information resources will
                           be used to improve the productivity, efficiency, and effectiveness
                           of government programs.6 Finally, DHS Management Directive
                           (MD) 0007.1 requires component CIOs to develop and implement
                           an IT strategic plan that clearly defines how IT supports a



3
  Improvements Needed in the U. S. Coast Guard’s Acquisition and Implementation of Deepwater 

Information Technology Systems (OIG-06-55), August 2006. 

4
  Review of U.S. Coast Guard Enterprise Architecture Implementation Process (OIG-09-93), July 2009. 

5
  Public Law 103-62 (1993).
 

6
  Office of Management and Budget Circular A-130, Management of Federal Information Resources, 

November 28, 2000.
 


    Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                  Page 5
                           component’s mission and drives investment decisions, guiding the
                           component toward its goals and priorities.7

                           The Coast Guard CIO has an up-to-date strategic plan that is in line
                           with federal requirements and departmental guidance. Specifically,
                           the CIO implemented the C4IT Strategic Plan FY11–FY15 in
                           January 2010. The C4IT strategic plan identifies five broad goals
                           for achieving the OCIO’s mission over the next 4 years. Figure 4
                           shows these five goals.




                           Figure 4: C4IT Strategic Plan Goals

                           To accomplish these broad goals, the CIO has established specific
                           initiatives in an annual performance plan. For example, in order to
                           meet the governance goal, the CIO is implementing a systems
                           development life cycle (SDLC) process to ensure the selection,
                           validation, and fulfillment of IT requirements. The performance
                           plan identifies key quarterly milestones for each specific initiative.
                           In addition to milestones, the CIO has identified the critical
                           success factors that must be completed and operational levels that
                           must be maintained for the OCIO to achieve its goals.

                           The C4IT Strategic Plan aligns with federal, DHS, and Coast
                           Guard strategic plans and guiding strategies, such as the federal
                           homeland security and maritime security strategies and the DHS
                           and Coast Guard strategic plans. The plan is also aligned with the
                           DHS Information Technology Strategic Plan 2011–2015 to ensure
                           that the Coast Guard supports the DHS CIO’s department-wide IT
                           goals. Finally, the plan aligns with The Commandant’s Guiding
                           Principles, which are intended to challenge Coast Guard personnel


7
 Department of Homeland Security, Management Directive 0007.1, Information Technology Integration
and Management, March 15, 2007.

    Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                  Page 6
                            to refocus on their missions. Figure 5 shows the alignment of the 

                            C4IT Strategic Plan with federal, DHS, and the Coast Guard plans. 





                            Figure 5: C4IT Strategic Plan Alignment

                            The CIO’s implementation of a well-aligned, up-to-date strategic
                            plan positions the CIO to provide effective IT support to meet
                            mission requirements. An effective IT strategic plan helps focus
                            limited resources and guide the direction of the OCIO. Further,
                            organizational alignment with the plan cascades down throughout
                            the OCIO. For example, division and office plans contain goals to
                            help accomplish the C4IT strategic goals, and individual
                            performance plans for Coast Guard personnel are tied to the
                            division and office plans. This structure affords alignment at all
                            levels of Coast Guard IT personnel activity. As long as the
                            milestones are met and initiatives are put into practice, the IT
                            strategic plan will help Coast Guard personnel fulfill their mission
                            responsibilities.

                            IT Acquisition

                            The Clinger-Cohen Act of 1996 requires that IT acquisition be a
                            simplified, clear, and understandable process to the maximum
                            extent practicable.8 To support this requirement, DHS Acquisition
                            Directive 102-01, appendix B, requires agencies to follow a
                            systems engineering life cycle (SELC) process.9 The purpose of
                            the DHS SELC is to establish a standard system life cycle
                            framework across DHS components and to ensure that DHS IT
                            capabilities are efficiently and effectively delivered.



8
    Public Law 104-106 (1996). 

9
    DHS AD 102-01, Interim Version 1.9, Acquisition Directive, Instruction Appendix B, November 7, 2008.
 


    Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                   Page 7
                       The Coast Guard has implemented the DHS SELC process for
                       major IT acquisitions, which are acquisitions with a life cycle cost
                       of $300 million and above. Specifically, the Coast Guard
                       developed the Major Systems Acquisition Manual (MSAM) to
                       establish policies and procedures and provide guidance for the
                       implementation of an acquisition management and review process
                       as defined by Acquisition Directive 102-01. The MSAM process
                       has five major phases. These phases require that the Coast Guard
                       identify a capability gap before formally beginning the acquisition
                       of a major system, define the functional capabilities needed to
                       address that gap, analyze alternate solutions, demonstrate the
                       feasibility of the preferred alternative, and deploy the operational
                       capability.

                       The Coast Guard has also defined an SDLC for non-major IT
                       acquisitions with a life cycle cost below $300 million. The SDLC
                       has seven major phases. The process begins with conceptual
                       planning to identify high-level business needs, propose and
                       validate a concept to fulfill those needs, and commit resources.
                       The next phase, planning and requirements, involves collecting,
                       defining, and validating business requirements and developing
                       initial life cycle management plans. The design phase translates
                       business requirements into system requirements to develop the
                       detailed system design. During the development and testing phase,
                       systems are developed or acquired and validated through a variety
                       of tests. The objective of the implementation phase is to produce
                       and deploy the operational capability. The operations and
                       maintenance phase involves ensuring that the system continues to
                       perform according to specifications. Finally, the disposition phase
                       involves the termination of the system at the end of the life cycle.

                       As shown in figure 6, the major phases of the MSAM are aligned
                       with the major phases of the DHS SELC. Likewise, the major
                       phases of the SDLC are aligned with the MSAM and the DHS
                       SELC.




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 8
                       Figure 6: IT Acquisition Process and Life Cycle Alignment

                       In addition to aligning with the DHS SELC, the Coast Guard’s IT
                       acquisition governance processes are streamlined and clearly laid
                       out in order to ensure adherence and compliance. These IT
                       acquisition governance processes enable the Coast Guard to make
                       IT acquisition decisions that will support both Coast Guard and
                       DHS strategic goals.

                       IT Acquisition Review Process

                       DHS MD 0007.1, issued in March 2007, requires IT acquisitions
                       valued at $2.5 million or greater to be submitted to the DHS CIO
                       for review. The directive also requires agency CIOs to implement
                       an IT Acquisition Review (ITAR) process for IT acquisitions
                       below $2.5 million. ITAR is required before the award of an IT
                       procurement. The purpose of the ITAR process is to ensure
                       alignment of acquisitions with IT policy, standards, objectives, and
                       goals across DHS.

                       The Coast Guard CIO began submitting IT acquisitions valued at
                       $2.5 million and above to the DHS CIO in FY 2007. That year,
                       the Coast Guard CIO submitted 15 IT acquisitions for review. The
                       number of acquisitions submitted had increased to 63 in FY 2010.
                       Figure 7 shows the increase in the number of IT acquisitions
                       submitted to the DHS CIO from FY 2007 to FY 2010.




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 9
                       Figure 7: IT Acquisition Reviews � $2.5 Million Submitted to the DHS CIO
                       (FY 2007 to FY 2010)

                       The Coast Guard has also taken steps to ensure compliance with
                       the ITAR requirement by implementing an ITAR process in
                       FY 2008 to review IT acquisitions with costs below $2.5 million
                       and above $100,000. The Coast Guard Commandant issued a
                       Commandant Instruction in December 2009 mandating compliance
                       with the ITAR process throughout the Coast Guard. In addition,
                       the CIO published an ITAR Practices Guide in 2010 to help guide
                       personnel through the process.

                       The number of IT acquisitions below $2.5 million going through
                       the ITAR process has increased steadily since the Coast Guard
                       implemented the review process. In FY 2008, the Coast Guard
                       CIO reviewed 40 IT acquisitions. By FY 2010, the CIO reviewed
                       233 IT acquisitions, an increase of nearly 500%. Figure 8 shows
                       the number of ITAR reviews below $2.5 million from FY 2008
                       through FY 2010.




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 10
                       Figure 8: IT Acquisition Reviews < $2.5 Million Conducted by the Coast Guard CIO
                       (FY 2008 to FY 2010)

                       These reviews have enabled the CIO to align IT acquisitions with
                       Coast Guard IT policies, standards, objectives, and goals. ITAR
                       also helps the CIO validate the Coast Guard’s alignment with DHS
                       Enterprise Architecture and ensure compliance with security and
                       accessibility requirements.

      IT Implementation
               The CIO has taken steps to centralize and standardize IT implementation
               across the Coast Guard, but more progress is needed. The Coast Guard
               historically has had a decentralized IT environment, with personnel at each
               Coast Guard district implementing IT to meet their unique requirements. In
               response to the evolving need for increased interoperability throughout the
               Coast Guard, the CIO established the C4IT Service Center in February 2009
               as a central authority to promote enterprise-wide IT standardization. The
               C4IT Service Center has unified the Coast Guard’s three IT centers of
               excellence, defined standard processes for field IT units, and defined
               standard IT portfolios with product lines and core technologies. In addition,
               C4IT Service Center leadership has several initiatives under way to further
               improve IT operations and maintenance.

               Although the Coast Guard has made progress, achieving a standard IT
               environment has been hampered by the CIO’s limited authority over some
               IT assets and spending. Specifically, not all IT personnel have been
               moved under the CIO, and the CIO does not have sufficient oversight of
               IT spending by field units. The 2006 Coast Guard modernization plans
               called for the CIO to have authority over IT personnel and spending.
               However, there is no overall plan of action and target dates to complete
               the transition of authority. Without such authority, the CIO cannot fully

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 11
               ensure that the Coast Guard IT environment is functioning effectively and
               efficiently.

                       Progress Centralizing IT Implementation

                       The Clinger-Cohen Act of 1996 gives the CIO responsibility for
                       developing, maintaining, and facilitating the implementation of a
                       sound and integrated IT architecture and promoting the effective
                       and efficient design and operation of all major information
                       resources management processes. Furthermore, a centralized
                       approach to IT implementation is a government and industry best
                       practice to improve performance and lower cost.

                       The Coast Guard has taken steps to centralize and standardize IT
                       implementation enterprise-wide. The Coast Guard began a
                       modernization effort in 2006 with the goal of creating a more
                       unified service, in part to address the challenges faced in
                       responding to Hurricane Katrina. To realize the vision of a
                       modernized Coast Guard, Commandant Intent Action Order #10
                       directed the CIO, as the single Coast Guard director of C4IT, to
                       standardize the IT environment across the Coast Guard.

                       As part of the modernization effort, the CIO established the C4IT
                       Service Center in February 2009, bringing together the operating
                       units, logistics centers, and other support units that performed the
                       engineering, management, and service resources and functions
                       previously distributed across OCIO offices. The Service Center
                       provides full life cycle support for Coast Guard IT applications,
                       systems, and infrastructure, providing Coast Guard personnel with
                       the information they need to perform their jobs.

                       Unified Three Centers of Excellence

                       The C4IT Service Center brings together under one reporting
                       structure the following three organizations (known as centers of
                       excellence) that are responsible for headquarters-level operations
                       and maintenance of enterprise-wide IT infrastructure and systems:

                           �	 OSC – Develops, fields, maintains, and provides user
                              support for Coast Guard enterprise information systems to
                              improve Coast Guard mission performance through the
                              innovative application of technology.

                           �	 TISCOM – Develops, deploys, secures, and supports the
                              Coast Guard’s IT infrastructure for both the sensitive but
                              unclassified and secret enterprises. Solutions are divided

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 12
                                     into three areas: (1) enterprise networks, (2) information
                                     systems, and (3) organizational messaging.

                                �	 C3CEN – Develops, builds, fields, trains, and supports
                                   advanced electronic command, control, and navigation
                                   systems.

                            Communication and coordination among OSC, TISCOM, and
                            C3CEN was a challenge before the C4IT Service Center was
                            established. For example, TISCOM is in charge of implementing
                            security patches for the enterprise IT infrastructure.10 When a
                            security patch is implemented, it can affect OSC’s enterprise
                            systems. In one case, TISCOM implemented a patch that caused a
                            malfunction in the MISLE system. The OSC told users to remove
                            the security patch to restore MISLE functionality. However, the
                            patch was a required security update, and when TISCOM
                            personnel scanned the network to identify where the patch was still
                            needed, they reinstalled it and once again affected MISLE
                            functionality.

                            Although the three centers of excellence remain independent
                            commands under the Coast Guard’s military organizational
                            structure, they report to the director of the Service Center. Coast
                            Guard IT officials said that the centers of excellence are working
                            more closely together. The centers’ consolidation under the C4IT
                            Service Center enables improved communication and coordination,
                            which are critical to effective IT support.

                            Standard IT Field Services

                            Prior to the Coast Guard modernization effort, responsibility for IT
                            operations and maintenance was decentralized. Each Coast Guard
                            district had its own IT support unit that reported directly to its local
                            operational command and provided IT solutions tailored to the
                            priorities and mission set of that location. The decentralized
                            approach tailored infrastructure design, deployment, service levels,
                            and support delivery to more individualized needs. Although a
                            decentralized approach was able to meet the Coast Guard’s needs
                            at first, it became less effective as the need developed for increased
                            interoperability and enterprise-wide information sharing.

                            The director of the C4IT Service Center established the Field
                            Services Division to oversee the 11 district IT support units and

10
  A patch is a small piece of code designed to be inserted into a program in order to fix errors in or update
the program or its supporting data.

     Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                   Page 13
                       lead the standardization of IT support processes and activities.
                       Field Services Division personnel have defined standard processes
                       for various IT support activities. For example, division personnel
                       defined a standard IT service desk process guide to replace the
                       unique processes being used by each IT support organization.
                       Field Service Division personnel have defined nine such process
                       guides to improve standardization of IT support service across the
                       Coast Guard districts. These process guides cover a range of
                       topics, including response to system failures, IT system backup
                       procedures, and standard configuration of IT systems on cutters.
                       Field Services Division personnel have also identified eight more
                       processes to standardize, including management of network access
                       and radio tower maintenance. Field IT personnel said that process
                       standardization has been beneficial. For example, when Coast
                       Guard personnel transfer to another location, they continue to
                       receive the same level and type of IT help desk service.

                       Product Lines and Core Technologies

                       The C4IT Service Center established a portfolio management
                       approach to improve standardization by defining a set of product
                       lines and core technologies that are supported throughout the Coast
                       Guard. The product line concept is intended to provide better
                       focus on customers by putting the personnel responsible for
                       product engineering, maintenance planning, procurement, and
                       supply into a single organization with a singular focus on service.
                       Core technologies are IT assets that are used to support several
                       product lines. For example, the radio communications core
                       technology provides radio communications systems to product
                       lines supporting command centers, communications stations, small
                       boat stations, boats, and cutters. This model allows for
                       accountability and control of the use, maintenance, and upgrades
                       of IT infrastructure. Coast Guard field personnel said that IT
                       standardization through core technologies and accountability
                       through product lines is beneficial. With fewer different
                       technologies to support, the C4IT Service Center will be able to
                       provide better support, and personnel will require less training
                       when they transfer between districts.

                       Ongoing C4IT Service Center Standardization Initiatives

                       The C4IT Service Center leadership has begun other initiatives to
                       improve Coast Guard IT operations and maintenance. The C4IT
                       Service Center plans to complete implementation of the service
                       delivery best practice (the Information Technology Infrastructure
                       Library (ITIL)), strengthen configuration management, and

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 14
                            implement a centralized service desk. The director of the C4IT
                            Service Center said that the organization remains a work in
                            progress as it has been in place for only about 2 years. The C4IT
                            Service Center is scheduled to complete standardization and
                            centralization initiatives by 2014.

                            Service Delivery

                            In March 2010, the C4IT Service Center leadership adopted ITIL
                            to manage IT service delivery. ITIL is a set of concepts and
                            practices for managing IT services, development, and operations.
                            The goal of ITIL is to provide the standard terminology, processes,
                            and continual improvement framework necessary to plan and
                            manage IT services more effectively and efficiently. Further, ITIL
                            will provide a tool to manage the increasingly critical and
                            extensive suite of IT services that the C4IT Service Center
                            provides. The C4IT Service Center continues to work on the
                            standardization of support processes as part of ITIL implementation.

                            Configuration Standardization

                            C4IT Service Center leadership is standardizing how field units
                            configure their IT environment.11 Service Center personnel test IT
                            changes using a standard configuration before deployment to the
                            field. Field units, however, may not have the same IT
                            configuration as headquarters, which causes IT challenges in the
                            field that were not present at headquarters. Field personnel said
                            that when headquarters deploys an IT change, it does not always
                            function in the field as expected. For example, when an upgrade to
                            the standard operating system image was pushed out, some
                            enterprise applications did not perform properly. Field personnel
                            said that headquarters personnel test systems in an ideal
                            environment that does not adequately replicate the challenges in
                            the field environment. The C4IT Service Center’s goal is to
                            standardize the IT configuration across field units to avoid such
                            problems going forward.

                            Centralized Service Desk

                            C4IT Service Center leadership plans to centralize the Coast
                            Guard’s 11 service desks into one centralized service desk located

11
  Configuration management is a process for establishing and maintaining consistency of a system’s
performance, functional, and physical attributes with its requirements, design, and operational information
throughout its life. The configuration management process provides a means to document and control the
adaptation and evolution of simple and complex systems. It is the management of changes that are made to
the hardware, software, firmware, and documentation throughout a system’s life cycle.

     Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                  Page 15
                       in St. Louis, MO. The centralized service desk is a best practice of
                       the IT industry. Once implemented, OCIO officials said that it will
                       support IT modernization and drive cost savings. The initial
                       operating capability for the centralized service desk is scheduled
                       for June 2011.

                       Once implemented, the centralized service desk is intended to
                       achieve three main objectives. First, it is intended to provide
                       consistent service. All Atlantic and Pacific area procedures for
                       providing IT support would be placed into a single construct to
                       serve the entire enterprise. All users would then have the same
                       interface for IT support, regardless of location. Second, this model
                       is intended to provide a single internal touch point in the C4IT
                       program, giving C4IT product lines at TISCOM, OSC, and
                       C3CEN a unified pathway for incident management and request
                       fulfillment. Third, it is intended to provide increased service at
                       reduced cost. By leveraging the collective strengths of district-
                       level service desks at one location, service can be expanded from a
                       local 8-to-4, Monday-through-Friday operation into a global
                       operation running 24 hours a day, 365 days a year.

                       Although the C4IT Service Center is still a work in progress, its
                       benefit was evident during the Coast Guard’s response to the
                       earthquake in Haiti and the Deepwater Horizon oil spill. The head
                       of the Field Services Division was able to pull both people and
                       equipment from Coast Guard units across the country to respond to
                       these disasters. For Deepwater Horizon, Coast Guard leadership
                       set up a separate command with its own flag officer so that the
                       regular flag officer in the district could continue to work on other
                       missions. In addition, OCIO leadership set up a separate IT
                       support unit within the temporary command with its own around­
                       the-clock IT service.

                       Additional Progress Needed To Complete IT Centralization

                       Additional progress is needed to ensure that the CIO has the
                       authority to implement a standardized Coast Guard IT
                       environment. Specifically, the CIO does not have adequate
                       authority over some headquarters IT personnel and discretionary
                       IT spending in the field. Although the 2006 Coast Guard
                       modernization plans called for giving the CIO authority over IT
                       personnel and spending, there is no overall plan of action and
                       target dates. Without authority over all IT resources, the CIO
                       cannot fully ensure that the Coast Guard IT environment is
                       functioning effectively and efficiently.


Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 16
                       CIO Authority Over Headquarters IT Personnel and Operations

                       Although a significant amount of IT resources have been
                       transferred to the CIO, the CIO does not have sufficient authority
                       over some IT personnel and operations at headquarters. Prior to
                       Coast Guard modernization, each Assistant Commandant had an
                       IT office and staff. Coast Guard modernization plans called for
                       program IT operations to be transitioned to the CIO. Some of the
                       programs transferred their IT offices and staff, including about 40
                       staff from the Deputy Commandant for Operations, Assistant
                       Commandant for Human Resources, and the Assistant
                       Commandant for Resources. In June 2008, the Chief Financial
                       Officer transferred authority over $89,995,000 in headquarters
                       funding for IT investments from program offices to the CIO.

                       However, approximately 165 personnel working in IT functions
                       within several Coast Guard divisions are not part of the CIO
                       organization. Figure 9 shows the Coast Guard divisions that
                       maintain IT personnel independent from the CIO.




                       Figure 9: IT Personnel Outside of the OCIO

                       In addition, the Finance Center, Pay and Personnel Center, and
                       Aviation Logistics Centers have independent IT operations. For
                       example, the Finance Center maintains its own data center, which
                       is distinct from the Coast Guard data center at the OSC.

                       Although the Coast Guard divisions with IT personnel coordinate
                       with the CIO, creating a standardized IT environment without
                       direct control remains a challenge. These small IT operations must
                       be moved to establish a clear line of authority to the CIO IT
                       support activities. For example, when the CIO published a Coast
                       Guard-wide notification explaining how the new C4IT Service
                       Center would support IT operations through product lines and core
                       technologies, it was necessary to include exceptions for the IT
                       offices that remain outside the CIO. The notification announced
                       that until Coast Guard modernization is complete, some units
                       retain their own IT support and would remain an exception to the
                       process described.


Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 17
                       The CIO does not have authority over these IT personnel and
                       assets because transition plans to align these personnel under the
                       CIO’s authority have not been completed. The CIO is discussing
                       the transition of IT personnel with leadership from these divisions.
                       However, there is no documented transition plan that sets forth the
                       actions to be taken and the related milestones. The CIO’s current
                       plan is to establish product lines for these functions and then shift
                       operational control of the IT staff to the CIO or C4IT Service
                       Center. Although the initiative to consolidate IT under the CIO
                       began in 2006, one senior Coast Guard official said that responses
                       to major incidents such as the Deepwater Horizon oil spill and the
                       earthquake in Haiti have delayed progress. Without a documented
                       plan of action and milestones, there is risk that consolidation
                       activities will continue to be delayed.

                       CIO Authority Over Field Unit IT Resources

                       The CIO also does not have sufficient oversight of IT spending by
                       Coast Guard field units. Field units can purchase IT with
                       discretionary funds without CIO review and approval. OCIO
                       officials said that field units obtain IT and then request that it be
                       connected to the Coast Guard network; however, at that point it is
                       too late for the CIO to prevent investments in IT that does not
                       comply with enterprise standards, such as those relating to security
                       and alignment to the enterprise architecture. For example,
                       personnel from one Coast Guard sector asked to connect a system
                       that they had obtained to the network. However, thousands of
                       security vulnerabilities in the system had to be resolved before the
                       system could be connected. The CIO’s standardization effort is
                       also hindered when field units buy items outside of the defined
                       core technologies and product lines.

                       The CIO does not have sufficient oversight of IT spending by
                       Coast Guard field units because plans to implement this oversight
                       have not been completed. The Chief Financial Officer identified
                       the need to consolidate field IT funding under the CIO through a
                       process similar to that conducted for headquarters. However, this
                       phase of consolidating funds has not been completed even though
                       it was initially scheduled to be accomplished in FY 2009.
                       Ultimately, the CIO’s lack of control over field units’ IT
                       acquisitions can result in wasted time and money due to
                       uncoordinated, duplicative investments.




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 18
           IT Use To Support the Coast Guard’s Missions
                    Coast Guard IT systems and infrastructure do not fully meet mission
                    needs. Specifically, Coast Guard field personnel do not have sufficient
                    network availability, and the aging financial system is unreliable. In
                    addition, command center and partner agency systems are not sufficiently
                    integrated. These limitations have various causes, including technical and
                    cost barriers, aging infrastructure that is difficult to support, and stove-
                    piped system development. As a result, field personnel rely on inefficient
                    workarounds to accomplish their mission.

                            Network Availability

                            Under the Paperwork Reduction Act of 1995, as amended, and the
                            Clinger-Cohen Act of 1996, agencies are required to acquire,
                            manage, and use IT to improve mission performance.12 Coast
                            Guard field personnel, however, face network and data availability
                            challenges in several areas. Specifically, Coast Guard cutters do
                            not have sufficient network connectivity while at sea; command
                            centers do not have systems that can adequately track Coast Guard
                            and partner agency vessels; and the new Rescue 21 system, a
                            direction-finding communication network for search and rescue,
                            suffers from network outages.

                            Cutter Connectivity

                            Coast Guard cutters do not have sufficient network connectivity.
                            Specifically, many cutters have not yet been connected to the
                            Coast Guard’s network. Network connectivity has been installed in
                            64 of the 99 cutters that were initially chosen to receive the
                            capability. An additional 141 cutters of various types are included
                            in a planned expansion of broadband communication to the fleet.
                            Currently, however, only 27% of the cutter fleet has connectivity
                            capability installed. Figure 10 shows the cutter fleet network
                            connectivity installation status.




                            Figure 10: Current Fleet Network Connectivity Installation Status

12
     Paperwork Reduction Act of 1995, as amended, Public Law 104-13 (1995).

     Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                   Page 19
                       For cutters that have connectivity installed, technical barriers can
                       cause insufficient underway connectivity. Specifically, land-based
                       wireless network connectivity is not feasible for cutters that deploy
                       to distances beyond the range of towers, and as a result the Coast
                       Guard must rely on satellite connectivity, which is more expensive
                       and has limited bandwidth. Other technical barriers include
                       limited space for antenna placement on smaller cutters and the risk
                       of antenna blockage due to the constant movement of the water.

                       In addition, the high cost of obtaining bandwidth at sea limits
                       connectivity. The Coast Guard relies on private companies for
                       access to bandwidth. The cost of providing connectivity has
                       increased because of the limited number of providers competing to
                       offer bandwidth service at sea and the large amount of bandwidth
                       being purchased by private companies, such as cruise companies.
                       Bandwidth becomes exceedingly expensive when Coast Guard
                       ships travel beyond 200 miles from shore. Although the Coast
                       Guard spends the vast majority of its time within 200 miles of the
                       coast, mission needs may require going beyond this distance. For
                       example, the need for large cutters to travel greater distances has
                       increased recently as shipping passageways have opened in the
                       arctic. Large cutters traveling greater distances require an increase
                       in bandwidth requirements, which increases the cost of obtaining
                       connectivity. The cost of connectivity outside of the 200-mile
                       barrier has been higher than expected. According to a senior Coast
                       Guard official, the funding for increased bandwidth will run out in
                       June 2011, forcing the Coast Guard to shift funds from other areas.

                       As a result of underway connectivity limitations, Coast Guard
                       personnel face challenges meeting their mission and administrative
                       responsibilities. Personnel work around connectivity limitations in
                       ways that are inefficient. For example, personnel at one Coast
                       Guard sector said that small cutters must run background checks
                       before boarding boats. Without connectivity, these cutters have
                       relied on information being sent over the radio. Sensitive or
                       classified information, however, that may be useful or necessary,
                       cannot be transmitted over unsecured radios. Alternatively, cutters
                       must dock at a nearby port to access needed information, delaying
                       the sharing of information and diverting ships from their posts.
                       For non-secure communication, personnel often use their
                       commercial email provider via a personal wireless device when
                       service is available.

                       Additionally, Coast Guard personnel without access to underway
                       connectivity are unable to complete required training and

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 20
                       administrative responsibilities while at sea. Technology has been
                       evolving away from stand-alone systems to network-based
                       systems. Consequently, as more administrative IT tools are added
                       to the Coast Guard network, personnel deployed to cutters need
                       greater network availability.

                       To improve cutter connectivity, the Coast Guard has implemented
                       satellite service using one service provider for global connectivity
                       and a second provider for service within 200 miles of the coast at a
                       lower cost. According to Coast Guard officials, moving to two
                       providers has lowered cost and allowed the Coast Guard to
                       increase both the available bandwidth and download speed,
                       although connectivity is still slow for users accustomed to desktop
                       communication speeds. Personnel in one sector said that the
                       addition of connectivity to their cutter allowed them to view emails
                       and access websites to facilitate mission activities. Although the
                       Coast Guard is working to improve underway connectivity,
                       officials acknowledge that additional bandwidth will be needed to
                       meet the requirements of Coast Guard personnel.

                       Blue Force Tracking

                       Coast Guard districts and sectors do not always have adequate
                       information on the location of their own and their partners’ assets.
                       The ability to determine the location of assets is referred to as blue
                       force tracking. Coast Guard operational units need to know where
                       Coast Guard assets, including small boats, cutters, and aircraft, are
                       at all times. For tracking purposes, the Coast Guard’s waterborne
                       assets are equipped with an Automatic Identification System (AIS)
                       transponder, which is similar to an airplane’s black box that
                       provides location information. The Coast Guard encrypts the AIS
                       signal so that only receivers able to decode the signal can see the
                       asset’s position. The Coast Guard relies on blue force tracking to
                       create a common operating picture by determining the location of
                       its waterborne assets and to differentiate Coast Guard vessels from
                       commercial or unfriendly ships. Using this information, the Coast
                       Guard can establish which of its assets are in the best position to
                       respond to situations, including search and rescue and law
                       enforcement missions.

                       One technical barrier to adequate blue force tracking is that the
                       encrypted AIS signal cannot be received beyond a limited range.
                       The range is determined by the height of the ship’s antenna and the
                       receiving tower. Consequently, districts or sectors with a large
                       area of responsibility may have cutters that travel more than


Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 21
                       15 nautical miles from shore and cannot be tracked without
                       additional transmission options.

                       In addition to the limited range of the encrypted AIS signal, Coast
                       Guard districts and sectors rely on several different display
                       systems, including the primary system, Command and Control
                       Personal Computer (C2PC), instead of one consolidated display
                       system to view blue force tracking information. Field personnel
                       said that C2PC does not receive a constant signal, and an asset’s
                       position can be days old. Some sectors have upgraded from C2PC
                       to the new Coast Guard standard Geographic Information System
                       tool, ArcGIS. Although ArcGIS is a more modern system than
                       C2PC, Coast Guard personnel said that it is slow to load
                       information and that it freezes. Sectors and stations in one district
                       accustomed to using Google Earth found the new ArcGIS system
                       performance so poor that they stopped tracking blue forces using
                       this system.

                       The blue force tracking system limitations have required command
                       center personnel to resort to non-automated, inefficient
                       workarounds. Specifically, personnel rely on voice communication
                       to obtain the geographic coordinates of deployed assets and plot
                       their locations manually. This process is inefficient and can affect
                       the safety of Coast Guard personnel. For example, without
                       automated tracking, Coast Guard personnel may need to radio in
                       their position during high-speed chases, which can be distracting
                       and dangerous. Additionally, when partner agency vessels are not
                       properly accounted for, the vessels may track and pursue one
                       another, wasting time and resources. Personnel at one Coast Guard
                       sector said that the lack of effective blue force tracking has led to the
                       Coast Guard’s pursuit of Customs and Border Protection (CBP)
                       boats.

                       The Coast Guard has undertaken several initiatives to improve blue
                       force tracking. Specifically, the CIO upgraded the infrastructure
                       for the common operating picture database, which is responsible
                       for displaying the positions for Coast Guard and DHS assets, along
                       with the locations of targets of interest, to improve near real-time
                       tracking ability. In addition, the CIO is fielding a replacement for
                       the C2PC system and is consolidating the various display systems
                       that are used across the Coast Guard.

                       Rescue 21

                       Rescue 21, the Coast Guard’s direction-finding communication
                       network for search and rescue, has availability limitations. Rescue

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 22
                       21 is a command, control, and communications system developed
                       to improve the Coast Guard’s search and rescue capabilities.
                       Rescue 21’s predecessor, the National Distress System, was
                       targeted for replacement after a high-profile tragedy in 1997, in
                       which the Coast Guard did not respond to a mayday call from the
                       ship Morning Dew. As of June 1, 2011 the Rescue 21 system has
                       been successfully employed in over 26,500 search and rescue
                       cases.

                       Although Coast Guard personnel said that Rescue 21 is a
                       significant improvement over the National Distress System, they
                       also identified challenges associated with the new system.
                       Specifically, Coast Guard sectors have experienced frequent
                       commercial network outages, which reduced system performance
                       and availability. For example, one Coast Guard sector has
                       experienced a total of 80 network outages since FY 2009, with
                       24 outages in FY 2011. Another Coast Guard sector had an outage
                       that lasted for approximately 2 days. These outages occur because
                       Rescue 21 was created without redundancy when the primary
                       network becomes unavailable.

                       In addition, Coast Guard field personnel have experienced
                       coverage gaps and tower misalignment issues. For example, one
                       sector employee said that one of the sector’s towers was so
                       misaligned that the location provided for a search and rescue
                       would be significantly off. Another sector identified a significant
                       gap in its area of responsibility following system deployment. In
                       this case, the Coast Guard added a temporary additional tower to
                       improve coverage until a permanent site could be constructed.
                       Recue 21 coverage gaps occur because of limitations on the
                       number of towers, site placement, and obstructions such as large
                       buildings.

                       As a result of Rescue 21 availability and coverage challenges, field
                       personnel must devote resources to fill in performance gaps. For
                       example, at each Coast Guard sector, security patches and system
                       upgrades are deployed to Rescue 21 once a month to mitigate
                       vulnerabilities and maintain certification and accreditation. While
                       the upgrades are being installed, the Rescue 21 system design does
                       not provide redundancy and becomes temporarily unavailable.
                       During this time sector Commanders may use personnel to
                       manually operate towers. In addition, sector Commanders may
                       coordinate aircraft patrols to maintain search and rescue
                       capabilities at great cost to the Coast Guard.



Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 23
                       Reliability

                       The Financial Procurement Desktop (FPD) is the enterprise-wide
                       accounting and procurement system used by the Coast Guard.
                       FPD is used to create and manage simplified procurement
                       documents and to maintain accurate accounting records. The
                       system offers templates to create and record requisitions, financial
                       obligations, and expenditures. Data from FPD is fed into the Core
                       Accounting System (CAS), and information from the two systems
                       must be reconciled.

                       According to Coast Guard personnel, FPD is slow, cumbersome,
                       and does not always save information. It is also not integrated
                       with CAS, and regularly displays inaccurate information and
                       creates transaction errors that require the Coast Guard’s Finance
                       Center to intervene to correct the problem. These issues are
                       exacerbated during times of increased demand. For example,
                       during the last quarter of FY 2010, FPD became unresponsive
                       during normal working hours. At the same time that the system
                       slowed down, financial personnel at Coast Guard districts said that
                       they encountered transactions that doubled or tripled, commitments
                       and obligations that did not liquidate, blank records, and an
                       inability to reconcile their accounts. Similar to FPD, CAS is slow
                       and cannot handle the high number of users employing the system
                       during times of peak demand.

                       FPD was developed more than 20 years ago, and its software is no
                       longer supported. The Coast Guard is aware that FPD needs to be
                       updated. Coast Guard personnel, however, are working with DHS
                       officials on the Transformation and Systems Consolidation
                       (TASC) initiative to achieve a department-wide integrated
                       financial solution. The Coast Guard CIO had requested that the
                       Coast Guard be the first DHS component to receive TASC, but it
                       was announced that implementation at the Coast Guard would
                       follow implementation at another agency. There is no timeframe
                       for when this will occur. No major upgrades will be made on FPD
                       while the Coast Guard awaits the implementation of TASC.

                       In the absence of major upgrades, Coast Guard personnel must
                       continue to rely on FPD, leading to continued inefficiency in
                       reconciling financial information. Specifically, the financial
                       statements audit for FY 2010 found that the Coast Guard had
                       material weaknesses in internal controls due, in part, to system




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 24
                            challenges.13 Further, during the fourth quarter of FY 2010, Coast
                            Guard budget personnel were not comfortable certifying FPD
                            results because they could not guarantee that accounts were
                            accurate and consistent with recorded transactions. During the
                            same period, FPD slowed down and eventually became
                            unresponsive, forcing some personnel to come to work at 2 a.m.
                            and on weekends. Additional delays were caused by CAS and
                            FPD not being integrated, which required Coast Guard personnel
                            to enter the same information twice. Delays caused by FPD and
                            CAS led one district to use almost 100 hours of overtime in order
                            to close financial accounts at the end of FY 2010.

                            Integration

                            The Clinger-Cohen Act of 1996 requires that agencies plan in an
                            integrated manner for managing their IT architecture. Furthermore,
                            the Suitability and Accountability for Every Port Act of 2006
                            requires the establishment of Interagency Operational Centers.14
                            For a location to officially achieve designation as an Interagency
                            Operational Center, it must maintain a memorandum of
                            understanding establishing interagency cooperation, including joint
                            awareness and coordination with CBP, along with access to a
                            geographic interface tool providing a common operating picture to
                            achieve situational awareness. However, Coast Guard command
                            center, DHS component, and partner agency systems are not
                            sufficiently integrated.

                            Coast Guard command centers commonly use between five and ten
                            different systems, many of which are not integrated. For example,
                            the Search and Rescue Satellite Aided Tracking system used to
                            help locate distress signals does not communicate with MISLE,
                            which tracks vessel information. As a result, users must search
                            each system independently. Similarly, the maritime search
                            planning tool, Search and Rescue Optimal Planning System, is not
                            integrated with MISLE. Users said that information from this
                            search and rescue system had to be manually added into MISLE.

                            Limited integration within Coast Guard command centers has been
                            caused by independently developed stovepipe systems created
                            before the modernization effort. Only recently has the OCIO put
                            in place processes to deter components from developing their own
                            IT systems.


13
   Independent Auditors’ Report on DHS’ FY 2010 Financial Statements and Internal Control Over 

Financial Reporting (OIG-11-09), November 2010. 

14
   Public Law 109-347 (2006). 


     Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                  Page 25
                       Without system integration, Coast Guard personnel are forced to
                       write down information and then transfer it manually to a separate
                       system, which can affect accuracy and reduce efficiency.
                       Additionally, Coast Guard personnel must manage a large number
                       of passwords for the command center systems, leading to
                       passwords being written down and possible security issues. To
                       improve integration, Coast Guard personnel are working to
                       standardize command centers and increase OCIO control over
                       operational systems.

                       Similarly, Coast Guard’s IT infrastructure is not integrated with
                       DHS components. For example, Coast Guard systems are not
                       effectively integrated with CBP systems. The Coast Guard is
                       unable to connect IT equipment used by CBP to the Coast Guard
                       network during joint ventures. At one designated Interagency
                       Operational Center location, CBP could not send staff to the center
                       because the facility only had access to the Coast Guard network,
                       and consequently the staff could not connect to their own network.
                       In addition, Coast Guard intelligence personnel are unable to
                       access all available DHS databases. Likewise, DHS components
                       are unable to search all the Coast Guard’s databases.

                       Integration between the Coast Guard and fellow DHS components
                       is hampered due to the Coast Guard’s status as a military
                       organization and the corresponding “.mil” website domain, which
                       is not conducive to working with other DHS entities that operate
                       on a “.gov” domain. Additionally, DHS components have
                       stovepipe systems that are not accessible to other components.
                       Coast Guard personnel unable to access certain DHS databases
                       rely on phone calls to DHS components to obtain background
                       information on vessels. If Coast Guard personnel are unable to
                       reach their point of contact within separate DHS components,
                       information may not be available prior to an operation.

                       In addition, Coast Guard and DHS systems are not integrated with
                       federal partner agencies. The Coast Guard is unable to use the
                       DHS network to share sensitive but unclassified information with
                       the Department of Defense, inhibiting the flow of information and
                       communication between the two agencies. Furthermore, personnel
                       at one Coast Guard district that works with up to eight external
                       agencies said that the Coast Guard is not completely compatible
                       with external agencies’ communications, systems, or networks.

                       The inability of the Coast Guard to utilize the DHS network to
                       share sensitive but unclassified information with the Department of
                       Defense is a result of unique security requirements for each

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 26
                       agency. New systems and system patches approved by the
                       Department of Defense must still be certified by DHS, delaying
                       integration between the two departments. Additionally, although
                       DHS is required to establish Interagency Operational Centers with
                       access to a geographic interface tool providing situational
                       awareness, no integrated common operating picture currently
                       exists for use by different federal agencies. Without an integrated
                       common operating picture, federal partners are forced to pass
                       information from one system to another, leading to accuracy issues
                       and a fear that the information being displayed is no longer current.
                       During the response to the Deepwater Horizon disaster, each
                       agency used a different common operating picture, making it
                       difficult to monitor all incoming information.

                       The Coast Guard has begun deploying WatchKeeper, an integrated
                       common operating picture, to facilitate the implementation of
                       Interagency Operational Centers. Once fully functional,
                       WatchKeeper is intended to pull information from multiple sources,
                       creating a situational awareness of assets and targets, and can
                       coordinate activities, share the schedule of different assets, and
                       help plan joint inspections. Although WatchKeeper has been
                       deployed to seven areas, Coast Guard personnel are skeptical that
                       adequate funding will be provided to maintain the system. Limited
                       funding has slowed the deployment of WatchKeeper and delayed
                       its installation date for at least one Coast Guard Sector.

               Recommendations
                       We recommend that the Coast Guard Chief of Staff:

                       Recommendation #1: Complete the transition of IT personnel
                       and oversight of field IT spending under the CIO.

                       We recommend that the Coast Guard Chief Information Officer:

                       Recommendation #2: Develop a plan of action and milestones to
                       complete the expansion of broadband communication to the fleet
                       to improve underway connectivity.

                       Recommendation #3: Develop a plan to address the need for near
                       real-time tracking requirements.

                       Recommendation #4: Implement a plan to ensure system
                       redundancy to meet availability requirements for Rescue 21.



Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 27
                       Recommendation #5: Implement a strategy to improve ease of
                       use and availability of the financial systems.

                       Recommendation #6: Ensure that new tools, such as
                       WatchKeeper, address command center requirements for improved
                       integration.

               Management Comments and OIG Analysis
                       We obtained written comments on a draft of this report from the
                       Rear Admiral of Planning, Resources, and Procurement. We have
                       included a copy of the comments in their entirety in appendix B.

                       In the comments, the Rear Admiral concurred with our
                       recommendations and provided details on steps being taken to
                       address specific findings and recommendations in the report. We
                       have reviewed management’s comments and provided an
                       evaluation of the issues outlined in the comments below.

                       In response to recommendation 1, the Rear Admiral concurred and
                       stated that the Coast Guard anticipates that this task will take time
                       to implement owing to the necessity of involving senior Coast
                       Guard leadership in the transition plans. Upon resolution of these
                       issues, the Coast Guard anticipates that it will be better positioned
                       to prepare a Plan of Action and Milestones to complete the
                       transition. We look forward to learning about progress made
                       toward addressing this recommendation.

                       Responding to recommendation 2, the Rear Admiral concurred and
                       stated that the Coast Guard is in the process of deploying methods
                       that will facilitate the faster exchange of data by 15 times the
                       current speed starting in June 2013 for cutters that are underway.
                       We recognize this action as a positive step toward addressing
                       recommendation 2.

                       In response to recommendation 3, the Rear Admiral concurred and
                       said that the Coast Guard will continue the testing and
                       implementation of the National Automatic Identification System,
                       which will extend coverage and provide near real-time access to
                       data. The Rear Admiral said the data will be displayed in a variety
                       of Coast Guard and DHS applications. We look forward to
                       learning more about continued progress and improvements in the
                       future.

                       In response to recommendation 4, the Rear Admiral concurred
                       with the recommendation and stated that the Coast Guard has been

Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 28
                       working with the DHS OneNet organization to reduce network
                       outage impacts to the system’s performance. Additionally, the
                       Rear Admiral said that the Coast Guard has procured and deployed
                       the Very Small Aperture Terminal satellite system at sites with
                       problematic network connections and plans to expand this or a
                       similar network backup capability to 100% of the Rescue 21
                       remote sites. We believe that such efforts are good steps toward
                       addressing our recommendation and look forward to learning more
                       about continued progress in ensuring system redundancy for
                       Rescue 21.

                       Responding to recommendation 5, the Rear Admiral concurred and
                       said that the Coast Guard is continuing to develop plans to
                       optimize the financial, procurement, and asset management
                       environments for improving financial transparency. We look
                       forward to learning more about continued progress and
                       improvements in the future.

                       In response to recommendation 6, the Rear Admiral concurred and
                       stated that the Coast Guard is using WatchKeeper and another new
                       tool, Mission Asset Scheduling Interface, to integrate command
                       centers. Additionally, the Rear Admiral said that evaluations to
                       determine the appropriate single sensor management system and
                       the geographic information system for enterprise use are ongoing.
                       We recognize this action as a positive step and look forward to
                       learning more about continued progress in the future.




Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                             Page 29
Appendix A
Purpose, Scope, and Methodology

                        As part of our ongoing responsibilities to assess the efficiency,
                        effectiveness, and economy of departmental programs and
                        operations, we conducted an audit to determine the effectiveness of
                        United States Coast Guard’s planning, acquisition, implementation,
                        and use of technology to support its mission.

                        We researched and reviewed federal laws and executive guidance
                        related to the Coast Guard’s support of IT systems, IT
                        management, and IT governance. We obtained published reports,
                        documents, and news articles regarding the DHS CIO operations
                        and IT management throughout the department. Additionally, we
                        reviewed recent Government Accountability Office and DHS OIG
                        reports to identify prior findings and recommendations. We used
                        this information to establish a data collection approach that
                        consisted of focused interviews, documentation analysis, site visits,
                        and system demonstrations to accomplish our audit objectives.

                        We held interviews at and conducted teleconferences with Coast
                        Guard headquarters, district, and sector units. Collectively, we
                        interviewed more than 100 Coast Guard headquarters officials,
                        field unit officials, and system users to learn about the Coast
                        Guard’s IT functions, processes, and capabilities. At headquarters,
                        we met with Coast Guard OCIO officials including the CIO,
                        Deputy CIO, branch chiefs, and program managers to discuss their
                        roles and responsibilities related to Coast Guard IT management.
                        We also met with key personnel from the C4IT Service Center,
                        which is responsible for operations and maintenance of the Coast
                        Guard IT infrastructure. Finally, we met with representatives from
                        Acquisitions and Capabilities to understand communication and
                        coordination activities pertaining to IT requirements and
                        acquisition processes.

                        At district and sector units, we met with commanding officers, IT
                        branch chiefs, IT specialists, program area specialists, and system
                        users to understand IT development practices, user requirements,
                        and system use in the field. We discussed the current IT
                        infrastructure and modernization efforts, local IT development
                        practices, and user involvement and communication with
                        headquarters. We collected supporting documents about the Coast
                        Guard’s IT structure, IT management functions, current initiatives,
                        and improvement initiatives.

                        We conducted audit fieldwork from November 2010 to February
                        2011 at Coast Guard headquarters units in Washington, DC;
                        Kearneysville, WV; and Norfolk, VA. We conducted additional

 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 30 

Appendix A
Purpose, Scope, and Methodology

                        audit fieldwork at Coast Guard district and sector units in Miami
                        and Key West, FL; New Orleans, LA; Alameda, CA; Seattle, WA;
                        Boston, MA; and Cleveland, OH. We also observed capabilities
                        on board the Coast Guard cutters Key Biscayne and Waesche, as
                        well as in Maritime Information Fusion Centers for both the
                        Atlantic and Pacific areas.

                        We conducted this performance audit between November 2010 and
                        June 2011 pursuant to the Inspector General Act of 1978, as
                        amended, and according to generally accepted government
                        auditing standards. Those standards require that we plan and
                        perform the audit to obtain sufficient, appropriate evidence to
                        provide a reasonable basis for our findings and conclusions based
                        upon our audit objectives. We believe that the evidence obtained
                        provides a reasonable basis for our findings and conclusions based
                        upon our audit objectives.

                        The principal OIG points of contact for this audit are Frank Deffer,
                        Assistant Inspector General for Information Technology Audits,
                        and Richard Harsche, Director of Information Management. Major
                        OIG contributors to the audit are identified in appendix C.




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 31 

Appendix B
Management Comments to the Draft Report




                                                                                  ,jill


                                                                                   AUG ""T1 2011
           MEMOILANe~
           Fn.-n:    RDML S. ~. ).\<;\"'0'                             Reply to   AU<litM~.
                     COMDT (eG-8)                                      Aim of:    Mark Kulwicki
                                                                                  (202) 372-3J33
           To:       I""". !kIT.,.
                     A"'<la11t In'peel'" ['"""".1
                     lntonnatioo T<cllnok>gy Audit>
           ~uhj'     DH~    01G RFI'()RT 0" COAST GUARD liAS TAKEN STEPS TO STRE'lGTIlill\
                     TNFQR),tUKlN TFCINOJ.DGY MAl\AGEMENI, BlII CHAIllNGES REMAIN

           R<f.      (a) DHS OIG Drofl Rqat dotod May 20, 2011

           I. TIl" m<mo"",dum ((""""it, tho C".,t Guord', _ 0 to til< fLnd~ ond
           ""'OJJJJllcoJltt~'J1' i<lmti~,,-l
                                   in rcfcrolcc (a),

           1. If_ h>vo '''y qu."i<H\~ my poi'" "f 00,,1:'''[ d).\,
           (202) 3n_l5JJ
                                                                     M_, Kuh.io'i wI., ""'. "" """"'<d.1

           [Ilclowte: (1) U;CG        m:pooo..

           COjJ)' Ricilord Ho=he, Divi,ion DireclOr
                  Steve<! St"'''. Audit M>JlO(l""
                  CrnilJ Ad<Iman, Audit'"
                  Annn Homlin, AudilOt
                  The>. eM..., Auditor
                  Donny McGr:ttlt, Alld;w




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                                      Page 32 

Appendix B
Management Comments to the Draft Report

                   UNITED STATES COAST GUARD RESPONSE TO 

                     DHS OFFICE OF INSPECTOR GENERAL’S 

                        DRAFT REPORT OF MAY 20, 2011 



TITLE: “COAST GUARD HAS TAKEN STEPS TO STRENGTHEN
INFORMATION TECHNOLOGY MANAGEMENT, BUT CHALLENGES REMAIN”


COAST GUARD’S GENERAL COMMENTS ON DHS OIG FINDINGS:

The Coast Guard generally concurs with the OIG’s recommendations and appreciates the
opportunity to comment on the draft report. The following corrective actions are being taken
to address the recommendations.

COAST GUARD RESPONSES TO DHS OIG RECOMMENDATIONS:

Recommendation #1: We recommend that the Coast Guard Chief of Staff complete the
transition of IT personnel and oversight of field IT spending under the CIO.

Concur. The Coast Guard anticipates this task will take time to implement due to the
necessity to involve senior Coast Guard leadership in the transition plans for IT personnel
and oversight of field IT spending. Upon satisfactory resolution of these issues, the Coast
Guard will be better positioned to prepare a Plan of Action and Milestones to complete the
transition.

Recommendation #2: We recommend that the Coast Guard Chief Information Officer
develop a plan of action and milestones to complete the expansion of broadband
communication to the fleet to improve underway connectivity.

Concur. The Coast Guard is in the process of recapitalizing all of the INMARSAT Standard
B (STD-B) systems used by the large cutter fleet for underway connectivity to the Coast
Guard’s data network (CGONE), SIPRNET, and the Internet. Currently, on the WMSL,
WHEC, 270’ WMEC, POLAR STAR, HEALY, and EAGLE cutters a combination of Ku-
Band (which offers higher bandwidth connectivity in many parts of the world) and Fleet
Broadband (provides worldwide coverage) systems exist. Our current project plan projection
has the C4IT Service Center completing all of the STD-B systems replaced by the
combination of Ku and Fleet Broadband by June 2013. This recapitalization will provide at
least a 400% improvement in throughput for underway cutters, but can provide up to 15 times
more bandwidth if the mission requires it, allowing them improved access to mission-critical
applications while underway.

Recommendation #3: We recommend that the Coast Guard Chief Information Officer
develop a plan to address the need for near real-time tracking requirements.




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 33 

Appendix B
Management Comments to the Draft Report

Concur: The Coast Guard will continue the testing and implementation of the NAIS
permanent system, which will extend receive coverage to 50 nautical miles and add channel
management and transmit capabilities to 24 nautical miles. This system provides near real-
time data, which will be displayed in a variety of Coast Guard and DHS applications.

Recommendation #4: We recommend that the Coast Guard Chief Information Officer
implement a plan to ensure system redundancy to meet availability requirements for
Rescue 21 (R21).

Concur: The Coast Guard has been working with the DHS OneNet organization to reduce
network outage impacts to the system’s performance. The Coast Guard has procured and
deployed Very Small Aperture Terminal (VSAT) satellite system at sites with problematic
network connections and plans to expand this or a similar network backup capability to 100%
of the R21 remote sites. The Coast Guard will continue the procurement and deployment of
the VSAT satellite system, as needed, at sites with problematic network connections to
ensure 100% back-up capabilities for these remote R21 sites.

Recommendation #5: We recommend that the Coast Guard Chief Information Officer
implement a strategy to improve ease of use and availability of the financial systems.

Concur: The Coast Guard is continuing to develop plans to optimize the financial,
procurement, and asset management environments for improving financial transparency.

Recommendation #6: We recommend that the Coast Guard Chief Information Officer
ensure that new tools, such as WatchKeeper, address command center requirements for
improved integration.

Concur: The Coast Guard is using WatchKeeper and another new tool, Mission Asset
Scheduling Interface, to integrate data input, retrieval, and display in the command center.
There are also ongoing evaluations to determine the appropriate single sensor management
system and geographic information system (GIS) for enterprise use.




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 34 

Appendix C
Major Contributors to this Report

                        Information Management Division

                        Richard Harsche, Division Director
                        Steven Staats, Audit Manager
                        Craig Adelman, Auditor
                        Anna Hamlin, Auditor
                        Thea Calder, Auditor
                        Danny McGrath, Auditor
                        Bridget Glazier, Referencer




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 35 

Appendix D
Report Distribution

                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        USCG, Commandant
                        USCG, Vice Commandant
                        USCG, Chief of Staff
                        USCG, Chief Information Officer
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Director of Local Affairs, Office of Intergovernmental Affairs
                        USCG Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




 Coast Guard Has Taken Steps To Strengthen Information Technology Management, but Challenges Remain

                                              Page 36
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
